TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Collection Actions Could Be Accelerated on
                 Some Large Dollar Balance Due Accounts



                                       June 22, 2009

                           Reference Number: 2009-30-090




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                         this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            June 22, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Collection Actions Could Be Accelerated on
                             Some Large Dollar Balance Due Accounts (Audit # 200830IE031)

 This report presents the results of our review to evaluate the source and status of large dollar
 ($1 million or more) individual taxpayer balance due accounts and the actions being taken by the
 Internal Revenue Service (IRS) to collect the amounts owed. This review was part of our Fiscal
 Year 2008 risk-based audit coverage under the major management challenge of Tax Compliance
 Initiatives.

 Impact on the Taxpayer
 While the majority of taxpayers owing $1 million or more are actively pursued for collection
 through various programs, we identified some large dollar taxpayers’ accounts where actions
 could be taken to accelerate accounts to field personnel for investigation and possible
 enforcement action. By accelerating all accounts where taxpayers owe $1 million or more, we
 estimated that the IRS could potentially collect approximately $12.1 million in revenue.

 Synopsis
 The IRS takes large dollar delinquent accounts very seriously and its Collection function
 procedures reflect this priority in the emphasis placed on collecting $1 million or more accounts.
 On December 22, 2007, there were 2,454 individual taxpayers in the IRS’ potentially collectible
 inventory who each owed more than $1 million in taxes, penalties, and interest. While the vast
 majority of these individuals (2,006 of 2,454) were being actively pursued for collection, we
                            Collection Actions Could Be Accelerated on Some
                                   Large Dollar Balance Due Accounts



identified 448 accounts totaling approximately $1.2 billion that were in the Queue1
(357 accounts) or that had been shelved (91 accounts). Among the 448 accounts, 214 accounts
were in the Queue or in shelved status for more than a year. We used automated information
systems2 and the IRS’ Fiscal Year 2007 collection rate3 to review a statistically valid sample of
155 of the 214 accounts and determined that as much as $12.1 million may be collectible from
27 taxpayers who owe a total of approximately $110 million.
To their credit, IRS officials are taking steps to correct two of the three factors causing some
large dollar accounts to linger in the Queue or in shelved status for an extended period of time.
The first factor, which IRS officials identified and were working to resolve, was a programming
flaw in the Inventory Delivery System that allowed accounts to remain in shelved status even
when the taxpayer’s account reached a balance of $1 million or more.
The second factor involved another computer programming problem that we brought to the
attention of IRS officials after nine Queue accounts included in our sample could not be located
in the ENTITY Case Management System (ENTITY). IRS officials stated that erroneous codes
were preventing the accounts from appearing in the group managers’ inventory in the ENTITY
and a computer programming change would be implemented to resolve the problem. We were
also informed that the problem was not limited to the few cases in our sample but affected at
least 2,439 other accounts with balances owed of $50,000 or more. Ensuring all delinquent
accounts appear in the ENTITY is critical because it ultimately affects which accounts are
identified and selected for investigation and possible enforcement action.
The third factor we identified as contributing to large dollar accounts lingering in the Queue or in
shelved status is the criterion used in the ENTITY for deciding which accounts are accelerated to
the field for collection. The ENTITY is currently programmed to identify and accelerate
accounts with assessments of $1 million or more, but does not take into consideration the related
interest and penalty accruals that continue to add to the total account balance owed until paid or
otherwise satisfied. As a result, individuals who owe a combination of tax assessments, interest,
and penalties that could far exceed $1 million can have their accounts linger in the Queue or
remain shelved while others who may owe less have their accounts accelerated to the field for
investigation and possible enforcement action.
Until the IRS ensures that the programming changes are designed, implemented, and functioning
properly, the risk remains that its automated inventory systems may not be functioning as
intended by Collection function procedures. In addition, opportunities may be missed to collect
some of the revenue owed by taxpayers with the largest balance due accounts.

1
  See Appendix V for a glossary of terms.
2
  The systems used were the IRS Integrated Data Retrieval System and Accurint.
3
  The collection rate of approximately 11 percent was calculated using the Fiscal Year 2007 Taxpayer Delinquent
Account Inventory dollar amount for individuals and the total dollars collected for individual accounts by the
Collection Field function.
                                                                                                                  2
                         Collection Actions Could Be Accelerated on Some
                                Large Dollar Balance Due Accounts




Recommendations
We recommended that the Director, Planning and Analysis, Small Business/Self-Employed
Division, follow through with actions to ensure the programming changes are designed,
implemented, and functioning in accordance with Collection function policies and procedures.
We also recommended that the Director, Planning and Analysis, explore the cost and benefits
associated with changing the ENTITY acceleration criteria of $1 million to include penalties and
interest accruals. If the potential benefits outweigh the cost, the Director should coordinate with
appropriate officials to implement the change to the acceleration criteria.

Response
IRS management agreed with our recommendations and has taken actions to address them.
Programming changes to the Inventory Delivery System to address accounts reaching a balance
of $1 million in shelved status were implemented in January 2009. Also, programming changes
to the ENTITY to appropriately present all cases for assignment in the Queue were implemented
in January 2009. Both systems are being monitored to ensure that they are functioning in
accordance with Collection function policies. The IRS stated that a research study was initiated
to explore changing the ENTITY acceleration criteria, and the results will be reviewed to
determine if any appropriate actions are necessary. Management concurred with the calculation
of the outcome measure included as Appendix IV given the acknowledgment that it “does not
include amounts (costs) that could offset this benefit due to reallocating resources from other IRS
investigations.” Management’s complete response to the draft report is included as
Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                                  3
                                 Collection Actions Could Be Accelerated on Some
                                        Large Dollar Balance Due Accounts




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Vast Majority of Individuals Owing $1 Million or More Are
          Actively Pursued for Collection....................................................................Page 3
          Programming Changes and Adjusting the Acceleration Criteria
          in the ENTITY Case Management System Are Needed ..............................Page 5
                    Recommendations 1 and 2: ................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measure ................................................................Page 13
          Appendix V – Glossary of Terms .................................................................Page 15
          Appendix VI – Management’s Response to the Draft Report ......................Page 18
         Collection Actions Could Be Accelerated on Some
                Large Dollar Balance Due Accounts




                  Abbreviations

ENTITY      ENTITY Case Management System
IRS         Internal Revenue Service
TRCAT       Transaction Category Report
                            Collection Actions Could Be Accelerated on Some
                                   Large Dollar Balance Due Accounts




                                           Background

The Internal Revenue Service’s (IRS) process for
collecting unpaid debt can go through three phases –            In Fiscal Year 2007, the IRS’
notices , telephone contact, and in-person contact. Debt      Unpaid Assessments exceeded
goes through these phases until it is determined to no              $290 billion, of which
longer be collectible, is collected, or is otherwise           $105.3  billion was considered
                                                                   potentially collectible.
resolved. According to the Government Accountability
Office, 1 in Fiscal Year 2007, over 16 million first
notices were sent to taxpayers, 5.4 million incoming and 1.9 million outgoing telephone contacts
were made, and an estimated 400,000 taxpayers were contacted in person. For its efforts, the
IRS collected $43 billion in unpaid tax debt. However, according to figures captured by the IRS
Chief Financial Officer, the amount of the IRS’ accounts receivable, which is also commonly
referred to as the IRS’ Unpaid Assessments, exceeded $290 billion. Approximately
$105.3 billion of the $290 billion was considered potentially collectible.
Unpaid assessments are generally identified by either 1) the taxpayer submitting a tax return with
a balance due but without full payment or 2) IRS compliance programs such as the IRS audit
program that identifies reporting noncompliance on filed tax returns or the Automated Substitute
for Return 2 program that creates a tax due return on the basis of available data provided to the
IRS by third parties on income such as wages and interest.
The IRS’ Unpaid Assessments – Potentially Collectible Inventory – reflects dollars available to
be collected and is the focus of the IRS’ collection efforts. It contains accounts in notice
inventory and delinquent taxpayer accounts in the Automated Collection System, Collection
Field function, Queue awaiting field assignment, and shelved due to a lack of resources.
Delinquent accounts remain in the inventory until they are either paid, abated, or until the
collection statute of limitations expires, which is usually 10 years from the tax assessment date.
Our review focused on accounts with a balance due of $1 million or more that were in either the
Queue or shelved for 1 year or more.
The review was performed at the IRS Small Business/Self-Employed Division Headquarters in
the Collection function’s Office of Planning and Analysis in New Carrollton, Maryland, during
the period March through December 2008. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for

1
  IRS Has a Complex Process to Attempt to Collect Billions of Dollars in Unpaid Tax Debts, GAO-08-728,
June 2008.
2
  See Appendix V for a glossary of terms.
                                                                                                         Page 1
                        Collection Actions Could Be Accelerated on Some
                               Large Dollar Balance Due Accounts



our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 2
                        Collection Actions Could Be Accelerated on Some
                               Large Dollar Balance Due Accounts




                                Results of Review

The IRS relies heavily on the Collection function’s automated inventory systems to identify and
select accounts to forward to the field for investigation and possible enforcement actions. The
Collection function uses the Inventory Delivery System to direct tax delinquency cases to
various points in the collection process, including the Automated Collection System and the
Collection Field function. Once directed to the Collection Field function, the ENTITY Case
Management System (ENTITY) is used to assign cases to field personnel, including accounts
designated for accelerated collection action.
While the vast majority of large dollar accounts have been identified and forwarded to the field
for collection action, steps need to be taken to ensure that computer programming changes to the
Collection function’s automated inventory systems are implemented and functioning properly.
In addition, the criterion in the ENTITY needs to be adjusted to include interest and penalties
accruals so all accounts with a balance due of $1 million or more are accelerated for assignment
to the field.

The Vast Majority of Individuals Owing $1 Million or More Are Actively
Pursued for Collection
On December 22, 2007, there were 2,454 individual taxpayers in the IRS’ potentially collectible
inventory who each owed more than $1 million in taxes, interest, and penalties. As shown in
Figure 1, the majority of these individuals (2,006 of 2,454) were actively pursued by the IRS
through notices, the Automated Collection System, or by Collection Field function personnel.
However, we identified 448 accounts totaling approximately $1.2 billion that were in the Queue
(357 accounts) or that had been shelved (91 accounts). Among the 448 accounts, 214 accounts
were in the Queue (138) or in shelved status (76) for more than a year.




                                                                                          Page 3
                          Collection Actions Could Be Accelerated on Some
                                 Large Dollar Balance Due Accounts



       Figure 1: IRS Unpaid Assessments – Potentially Collectible Inventory,
           by Collection Action, for the Week Ending December 22, 2007
                                              Tax
      Potentially Collectible Inventory     Periods      Taxpayers         Total Balance Due
      1st Notice Status                           425           390                $1,449,866,780
      2nd Notice Status                            24            22                  $139,131,021
      3rd Notice Status                            97            90                  $286,104,765
      4th Notice Status                           212           190                  $767,942,158
      Taxpayer Delinquent Account –
                                                1,657         1,311                $6,180,551,304
      Collection Field function
      Taxpayer Delinquent Account –
                                                     3             3                    $3,255,459
      Automated Collection System
      Taxpayer Delinquent Account –
                                                  403           357                  $922,873,061
      QUEUE

      Currently Not Collectible – Shelved         107            91                  $264,349,459

      Totals                                   2,928           2,454               $10,014,074,007
     Source: Transaction Category Report (TRCAT) extract from the Treasury Inspector General for Tax
     Administration Data Center Warehouse.

As reflected in Figure 2, the largest contributor to these individual taxpayer balance due accounts
was assessments stemming from non-filer cases. In these cases, the IRS will typically estimate
the taxes owed by the non-filer after not receiving a response to contact letters and prepare a
Substitute for Return based on available information.




                                                                                                   Page 4
                            Collection Actions Could Be Accelerated on Some
                                   Large Dollar Balance Due Accounts



        Figure 2: IRS Unpaid Assessments – Potentially Collectible Inventory,
          by Source of Assessment, for the Week Ending December 22, 2007
                                                       Tax
               Source of Assessment                  Periods     Taxpayers        Total Balance Due
       Substitute for Return                          1,546          1,321           $6,232,243,953
       Taxpayer Delinquency Investigation                80             73             $162,696,326
       Delinquent Return Notice Status                   11             11              $39,276,912
       Examination Assessment                           569            419           $1,808,731,518
       Underreporter Program                             59             57             $152,320,430
       Adjustments                                       37             29              $92,415,491
       Math Errors                                        8              8              $38,284,794
       Balance Due First Notice                         413            391           $1,036,535,001
       Trust Fund Recovery Penalty                      191            141             $402,994,506
       Other Penalties                                   14             14              $48,575,076
       Totals                                         2,928         2,464 3         $10,014,074,007
      Source: TRCAT extract from the Treasury Inspector General for Tax Administration Data Center
      Warehouse.

Programming Changes and Adjusting the Acceleration Criteria in the
ENTITY Case Management System Are Needed
The IRS takes large dollar delinquent accounts very seriously and its Collection function
program reflects this priority in the emphasis placed on collecting these accounts. To ensure that
large dollar accounts are immediately assigned and worked by field personnel, Collection
function management established a policy in April 2005 that cases of $1 million or more would
be accelerated to the field.
We used automated information systems 4 and the IRS’ Fiscal Year 2007 collection rate 5 to
review a statistically valid sample of 155 of 214 accounts. We found 35 of 155 accounts had
collection potential but remained in the Queue or shelved. IRS records indicate that 23 of the
35 taxpayers (66 percent) may have been contacted through the Automated Collection System or
Collection Field function. Also, 11 of the 35 taxpayers (31 percent) had either a lien or levy
placed on their accounts. Although the IRS has planned systemic changes to accelerate


3
  There is a difference in the number of taxpayers from Figure 1 as compared to Figure 2 because one taxpayer
record could include more than one type of tax assessment for that taxpayer.
4
  The systems used were the IRS Integrated Data Retrieval System and Accurint.
5
  The collection rate of approximately 11 percent was calculated using the Fiscal Year 2007 Taxpayer Delinquent
Account Inventory dollar amount for individuals and the total dollars collected for individual accounts by the
Collection Field function.
                                                                                                          Page 5
                                Collection Actions Could Be Accelerated on Some
                                       Large Dollar Balance Due Accounts



assignment for 8 of the 35 accounts, it may be missing the opportunity to collect an estimated
$12.1 million from the remaining 27 taxpayers who owe a total of approximately $110 million. 6




As summarized in Figure 3, 20 of the 35 accounts had assessed balances under
$1 million but exceeded $1 million with interest and penalties accruals, and 15 cases had
assessed balances over $1 million. The total account balances for the 35 accounts ranged from
approximately $1 million to $22 million. The total account balances will increase as penalties
and interest continue to accrue until the account balances are collected or otherwise resolved.
    Figure 3: Analysis of 35 Queue and Shelved Accounts with Collection Potential
                                                                     ,. -",,<,",'.-,-.,   .'.'~","   ><   ''''~'''~''''~v><   "'''''',,<,,-''   ".'~'" v   ~-'--'-''1':''''i''''   ..
                                                     Number of
              . Source of Assessment                 Accounts             Range of Total Account Balances7
        ""

          Substitute for Return
           Assessed Balance < $ 1 million              8                  $1.0 - $1.5 million
           Assessed Balance> $ 1 million              10                  $1.7 - $22.0 million
         Trust Fund Recovery Penalty
           Assessed Balance < $1 million        1      8                  $1.1 - $4.3 million
                                                                                                                                                       J
           Assessed Balance> $1 million            "[]               II      ~.l\..•. "" ~.J
          Balance Due First Notice
           Assessed Balance < $1 million               3                  $1.1 - $1.3 million
         Examination Assessment                  1
           Assessed Balance < $1 million                                  .,:~,                               "';:-':,1            ,.1

           Assessed Balance> $1 million                3                  $1.9 - $19.9 million
          Delinquent Return Notice Status         1                                                                                               1
           Assessed Balance> $1 million                  C:J         !.:.                                 ''';:''1
         Total                                        35                                                            J         :
                                                                                                                                                                    I

        Source: Our analysis a/Queue and shelved accounts.

To their credit, IRS officials are taking steps to correct two of the three issues causing some large
dollar accounts to linger in the Queue or in shelved status for an extended period of time, The
first factor, identified by the IRS prior to our review, was a programming flaw in the Inventory
Delivery System that allowed accounts to remain in shelved status even when the taxpayers'

6   Appendix IV contains the methodology used to determine the amount that may be collectible.
7   Total account balances include penalties and interest. The assessed balances do not include these amounts.

                                                                                                                                                                                        Page 6
                           Collection Actions Could Be Accelerated on Some
                                  Large Dollar Balance Due Accounts



accounts reached $1 million or more. Of 448 taxpayer accounts, 47 met this criterion. Eight of
the 35 accounts we identified with collection potential are included in this group. A
programming change scheduled for January 2009 would remove accounts from shelved status
and place them in the Queue for assignment to the field through the ENTITY. However, the
timing of our work did not afford us the opportunity to verify if the scheduled programming
change was implemented and functioning as intended.
The second factor involved a computer programming problem that we brought to the attention of
IRS officials after 9 of the 35 accounts included in our sample could not be located in the
ENTITY. Collection function management stated that erroneous codes were preventing accounts
from appearing in the ENTITY. IRS management advised the Treasury Inspector General for
Tax Administration in October 2008 that they were not aware of the problem, but would
implement programming changes to resolve the issue by December 31, 2008. We were also
informed that the problem was not limited to the few cases in our sample but involved a total of
2,439 accounts (balances of $50,000 or more) totaling approximately $719.2 million. Ensuring
that all delinquent accounts appear in the ENTITY is critical because it ultimately affects which
accounts are identified and selected for investigation and possible enforcement action.
Consequently, the IRS will need to ensure that the programming changes are implemented and
function in accordance with the intent of its policies and procedures. By doing so,
management’s actions would be in accordance with the Standards for Internal Control in the
Federal Government. 8
The third factor we indentified as contributing to large dollar accounts lingering in the Queue or
in shelved status is the criterion used in the ENTITY for deciding which accounts are accelerated
to the field for collection. Eighteen of the 35 accounts with collection potential were affected by
this issue. The ENTITY is currently programmed to identify and accelerate accounts with
assessments of $1 million or more, but does not take into consideration interest and penalties
accruals that continue to add to the total account balance owed until paid or otherwise satisfied.
As a result, individuals who owe a combination of tax assessments, interest, and penalties that
could far exceed $1 million can have their accounts linger in the Queue or remain shelved while
others who may owe less can have their accounts accelerated to the field for investigation and
possible enforcement action.
Until the IRS ensures that the programming changes are designed, implemented, and functioning
properly, the risk remains that its automated inventory systems may not be functioning as
intended by Collection function procedures. In addition, opportunities may be missed to collect
some of the revenue owed by taxpayers with the largest balance due accounts.




8
    GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                            Page 7
                         Collection Actions Could Be Accelerated on Some
                                Large Dollar Balance Due Accounts



Recommendations
The Director, Planning and Analysis, Small Business/Self-Employed Division, should:
Recommendation 1: Follow through with actions to ensure that the programming changes
are designed, implemented, and functioning in accordance with Collection function policies and
procedures.
       Management’s Response: IRS management agreed with our recommendation.
       Management stated that programming changes to the Inventory Delivery System to
       address accounts reaching a balance of $1 million in shelved status were implemented in
       January 2009. Also, programming changes to the ENTITY to appropriately present all
       cases for assignment in the Queue were implemented in January 2009. Both systems are
       being monitored to ensure that they are functioning in accordance with Collection
       function policies.
Recommendation 2: Explore the cost and benefits associated with changing the ENTITY
acceleration criteria of $1 million to include penalties and interest accruals. If the potential
benefits outweigh the cost, the Director should coordinate with appropriate officials to
implement the change to the acceleration criteria.
       Management’s Response: IRS management agreed with our recommendation.
       Management stated that a research study was initiated to explore changing the ENTITY
       acceleration criteria and the results will be reviewed to determine if any appropriate
       actions are necessary.




                                                                                             Page 8
                               Collection Actions Could Be Accelerated on Some
                                      Large Dollar Balance Due Accounts



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the source and status of large dollar
($1 million or more) individual taxpayer balance due accounts and the actions being taken by the
IRS to collect the amounts owed. To accomplish our objective, we:
I.         Obtained and discussed policies and procedures with the IRS Program Manager,
           Collection Case Delivery, Small Business/Self-Employed Division, and the IRS Program
           Manager, Collection Case Selection, Small Business/Self-Employed Division,
           responsible for overseeing the systems that deliver and select large balance due accounts
           for assignment to the Collection Field function.
II.        Downloaded an extract of the IRS Transaction Category Report (TRCAT) 1 file for
           Cycle 200751 (week ending December 22, 2007) from the Treasury Inspector General for
           Tax Administration Data Center Warehouse.
           A. Validated the reliability of computer-processed data by matching the IRS Gross
              Accounts Receivable Dollar Inventory total dollar amount on the TRCAT 713-52-87
              for Cycle 200751 (which includes assessed tax and accrued interest and penalties)
              with the TRCAT extract obtained from the Treasury Inspector General for Tax
              Administration Data Center Warehouse to ensure that the total gross Individual
              Master File dollars matched. In addition, we verified data from the extract with
              Integrated Data Retrieval System transcripts for accounts selected for review.
           B. Determined the source, age, and dollar amounts of large individual balance due
              accounts.
III.       Determined what actions had been taken to collect balance due accounts with at least
           1 tax period with a total module balance of $1 million or more that has been awaiting
           assignment for 1 year or more.
           A. Coordinated with the IRS Office of Statistics of Income to select a statistically valid
              sample of TRCAT records from the December 22, 2007, extract. In March 2008,
              using the Integrated Data Retrieval System, we identified a total universe of
              138 Queue and 76 shelved accounts over 1 year old. We selected a random sample of
              95 Queue accounts based on a 95 percent confidence level, 25 percent error rate, and
              ±5 percent precision factor and a random sample of 60 shelved accounts based on a
              95 percent confidence level, 20 percent error rate, and ±5 percent precision factor.

1
    See Appendix V for a glossary of terms.
                                                                                               Page 9
                       Collection Actions Could Be Accelerated on Some
                              Large Dollar Balance Due Accounts



         We made no projections for the remaining universe of accounts.
      B. Researched information for the samples selected in Step III.A. using the Integrated
         Data Retrieval System, the ENTITY, and closed case files from the Integrated
         Collection System (where available) to determine the current status, income available,
         and IRS actions taken to collect balances due.
      C. For the cases sampled in Step III.A., researched the Accurint to identify taxpayers’
         assets.
      D. Determined if the cases in our samples have Collection potential based on income and
         assets identified.
      E. Discussed our cases with the Small Business/Self-Employed Division Collection
         function analyst to verify our facts and conclusion.
      F. Contacted 17 group managers and 1 supervisory revenue officer to determine why
         cases with collection potential had not been assigned to the Collection Field function
         from 1 to 6 years.
IV.   Calculated the amount of potential increased revenue.
      A. Calculated the total dollar amount ($110,019,492) for 27 Queue and shelved accounts
         with collection potential that remained either in Queue or shelved status.
      B. Obtained statistics from the Collection Activity Reports for Fiscal Year 2007 and
         determined the percentage of total dollars collected by the Collection Field function
         using the total inventory dollars and the total dollars collected. We then applied this
         percentage to the total estimated potential dollars collectible for the 27 Queue and
         shelved accounts.




                                                                                         Page 10
                       Collection Actions Could Be Accelerated on Some
                              Large Dollar Balance Due Accounts



                                                                            Appendix II

                Major Contributors to This Report

Margaret Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Lisa Stoy, Audit Manager
Carole Connolly, Lead Auditor
Erlinda Foye, Auditor
Craig Pelletier, Auditor
Ali Vaezazizi, Auditor




                                                                                   Page 11
                      Collection Actions Could Be Accelerated on Some
                             Large Dollar Balance Due Accounts



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Director, Planning and Analysis, Small Business/Self-Employed Division SE:S:C:PA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 12
                               Collection Actions Could Be Accelerated on Some
                                      Large Dollar Balance Due Accounts



                                                                                   Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Increased Revenue – Potential; approximately $12.1 million (see page 5).

Methodology Used to Measure the Reported Benefit:
We obtained a data extract using the TRCAT 1 file for the week ending December 22, 2007.
There were 2,454 individual taxpayers in the IRS’ potentially collectible inventory who each
owed over $1 million in taxes, interest, and penalties for at least 1 tax period. The vast majority
of these individuals (2,006 of 2,454) are being actively pursued by the IRS through notices, the
Automated Collection System, or by Collection Field function personnel. However, for the
remaining 448 taxpayers who are awaiting assignment in the Queue or whose accounts have
been shelved, we found that some of these taxpayers may have the ability to pay all or part of
their tax liabilities based on their income and/or financial assets we identified through the IRS
Integrated Data Retrieval System and the Accurint.
Among the 448 accounts, 214 accounts were in the Queue (138 accounts totaling $310,994,047)
or in shelved status (76 accounts totaling $276,859,080) for 1 year or longer. With the assistance
of the IRS Office of Statistics of Income, we selected a statistically valid sample of 95 Queue
and 60 shelved accounts.

           Statistical Information              Queue                    Shelved
        Universe                                            138                      76
        Error Rate                                         25%                     20%
        Precision Factor                                   ±5%                     ±5%
        Confidence Level                                   95%                     95%
        Sample Size                                          95                      60



1
    See Appendix V for a glossary of terms.
                                                                                            Page 13
                        Collection Actions Could Be Accelerated on Some
                               Large Dollar Balance Due Accounts



We identified 35 accounts where the taxpayer may have some ability to pay towards his or her
outstanding liability and the account had not been active for a year or longer. For purposes of
calculating our outcome measure, we excluded the 8 shelved accounts that would be impacted by
the January 2009 programming changes preventing accounts of $1 million or more from being
shelved. The remaining 27 Queue and shelved accounts totaling $110,019,492 continued to
remain inactive.
Next, we determined that, in Fiscal Year 2007, the Collection Field function collected
approximately 11 percent on individual balances due accounts. This percentage was calculated
by dividing the Collection Field function Taxpayer Delinquent Account Inventory for individual
taxpayers ($13,034,906,856) by the amount collected for individual taxpayers ($1,429,565,978).
The percent calculated is an overall percentage for all individual balance due accounts in all
dollar ranges.
$ 1,429,565,978     = .1097 or approximately 11 percent
$13,034,906,856
We then applied the 11 percent to the $110,019,492 owed on the 27 accounts and determined
that the IRS could potentially collect approximately $12.1 million if the accounts were assigned
to the field. The outcome measure does not include amounts (costs) that could offset this benefit
due to reallocating resources from other IRS investigations.




                                                                                         Page 14
                             Collection Actions Could Be Accelerated on Some
                                    Large Dollar Balance Due Accounts



                                                                                                  Appendix V

                                      Glossary of Terms

Accelerated Collection Action – Cases sent for immediate issuance to front-line collection
employees.
Accurint – A third-party research tool that provides online access to asset/locator information
including real and personal property data, motor vehicle information, State corporation data, and
other public records.
Adjustments – A change in the amount of tax owed based on IRS matching programs or a
computation error made by the taxpayer on the filed return.
Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Automated Substitute for Return – A program that attempts to enforce filing compliance on
taxpayers who have not filed individual income tax returns by automatically generating a return
that assesses related tax, penalties, and interest. The IRS’ goal is to motivate the taxpayer to file
an accurate tax return, which usually reports a lower tax liability than the IRS assesses because
the IRS does not know all of the taxpayer’s circumstances.
Balance Due First Notice – An IRS notice informing the taxpayer that there is a balance due on
the return filed.
Collection Field function – The unit in the Area Offices 1 consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Currently Not Collectible – Accounts where no current collection potential exists and the
taxpayer’s financial condition or the inability of the IRS to locate the taxpayer makes it unlikely
to collect in the future.
Data Center Warehouse – A centralized storage and administration of files that provides data
and data access services to IRS data.
Delinquent Return Notice Status – An IRS notice sent to the taxpayer because a return was not
filed. The taxpayer filed the return after receiving such notification.



1
 A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
                                                                                                            Page 15
                         Collection Actions Could Be Accelerated on Some
                                Large Dollar Balance Due Accounts



ENTITY Case Management System – A Collection function system that uses data from the
Integrated Collection System and Integrated Data Retrieval System for case management, report
compilation, and management information. The ENTITY is used by Collection Field function
group managers to assign inventory to revenue officers.
Examination Assessment – An additional amount owed by the taxpayer after the taxpayer’s
return was examined.
Individual Master File – The IRS database that maintains transactions or records of individual
tax accounts.
Integrated Collection System – The information management system designed to improve
revenue collections by providing revenue officers access to the most current taxpayer
information and, while in the field, using laptop computers for quicker case resolution and
improved customer service.
Integrated Data Retrieval System – The IRS computer system capable of retrieving or
updating stored information; it works in conjunction with a taxpayer’s account records.
Inventory Delivery System – The inventory delivery system used by the Collection function to
route and prioritize Collection function work.
Levy – A method used by the IRS to collect outstanding taxes from sources such as bank
accounts and wages.
Lien – A claim on a taxpayer’s assets for the amount of unpaid tax.
Math Error – A computation error or mismatch of taxpayer information identified through a
matching program that would result in a tax change.
Module - A part of a taxpayer’s account that reflects tax data for one type of tax and one tax
period.
Non-filer – A taxpayer who fails to file income tax returns and effectively stops paying income
tax.
Other Penalties – Penalties assessed for various noncompliance reasons including late filing,
failure to make estimated payments, late Federal tax deposits, etc.
Queue – An automated holding file for unassigned inventory of delinquent cases for which the
Collection function does not have enough resources to immediately assign for contact.
Shelved – Delinquent unpaid accounts or investigations of unfiled tax returns that have been
taken out of Collection function inventory because they are a lower priority than other available
cases.
Taxpayer Delinquent Account – A balance due account of a taxpayer. A separate Taxpayer
Delinquent Account exists for each tax period.

                                                                                          Page 16
                         Collection Actions Could Be Accelerated on Some
                                Large Dollar Balance Due Accounts



Taxpayer Delinquency Investigation – The taxpayer did not file a tax return. The return was
later secured after the case was assigned to the Automated Collection System or a Collection
Field function revenue officer.
Transaction Category Report File(s) – Files created as part of the IRS’ Accounts Receivable
Dollar Inventory. The files identify all accounts with a balance due.
Trust Fund Recovery Penalty – A penalty assessed against responsible corporate officers for
their willful failure to collect and remit trust fund taxes to the Federal Government. Businesses
use Employer’s Quarterly Federal Tax Return (Form 941) to report trust fund taxes.
Underreporter Program – A program that matches income, deductions, and credits reported on
the tax return with the wage and information return data reported by employers, banks, and credit
unions on information returns.




                                                                                           Page 17
        Collection Actions Could Be Accelerated on Some
               Large Dollar Balance Due Accounts



                                                  Appendix VI

Management’s Response to the Draft Report




                                                          Page 18
Collection Actions Could Be Accelerated on Some
       Large Dollar Balance Due Accounts




                                                  Page 19
Collection Actions Could Be Accelerated on Some
       Large Dollar Balance Due Accounts




                                                  Page 20
